<html>
<title> - REVIEW OF FEDERAL HYDRAULIC FRACTURING RESEARCH ACTIVITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                      REVIEW OF FEDERAL HYDRAULIC

                     FRACTURING RESEARCH ACTIVITIES

=======================================================================



                             JOINT HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON ENERGY &

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FRIDAY, APRIL 26, 2013

                               __________

                           Serial No. 113-25

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov





                  U.S. GOVERNMENT PRINTING OFFICE
80-564                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                         Subcommittee on Energy

                  HON. CYNTHIA LUMMIS, Wyoming, Chair
RALPH M. HALL, Texas                 ERIC SWALWELL, California
FRANK D. LUCAS, Oklahoma             ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              JOE KENNEDY III, Massachusetts
MICHAEL MCCAUL, Texas                MARC VEASEY, Texas
RANDY HULTGREN, Illinois             MARK TAKANO, California
THOMAS MASSIE, Kentucky              ZOE LOFGREN, California
KEVIN CRAMER, North Dakota           DAN LIPINSKI, Illinois
RANDY WEBER,Texas                    EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas
                                 ------                                

                      Subcommittee on Environment

                    HON. CHRIS STEWART, Utah, Chair
F. JAMES SENSENBRENNER, JR.,         SUZANNE BONAMICI, Oregon
    Wisconsin                        JULIA BROWNLEY, California
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARC VEASEY, Texas
PAUL C. BROUN, Georgia               MARK TAKANO, California
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
                                     EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas


                            C O N T E N T S

                         Friday, April 26, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Cynthia Lummis, Chairwoman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    13
    Written Statement............................................    14

Statement by Representative Eric Swalwell, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    15
    Written Statement............................................    16

Statement by Representative Chris Stewart, Chairman, Subcommittee 
  on Environment, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    16
    Written Statement............................................    17

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    18
    Written Statement............................................    19


Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    20
    Written Statement............................................    20


                               Witnesses:

Dr. Kevin Teichman, Senior Science Advisor, Office of Research 
  and Development, Environmental Protection Agency
    Oral Statement...............................................    22
    Written Statement............................................    24

Mr. Guido DeHoratiis, Acting Deputy Assistant Secretary for Oil 
  and Gas, Office of Fossil Energy, Department of Energy
    Oral Statement...............................................    31
    Written Statement............................................    33

Dr. David Russ, Regional Executive, Northeast Area, U.S. 
  Geological Survey
    Oral Statement...............................................    37
    Written Statement............................................    39

Dr. Robin Ikeda, Acting Director, Agency for Toxic Substances and 
  Disease Registry, Department of Health and Human Services
    Oral Statement...............................................    46
    Written Statement............................................    48

Discussion.......................................................    58

             Appendix I: Answers to Post-Hearing Questions

Dr. Kevin Teichman, Senior Science Advisor, Office of Research 
  and Development, Environmental Protection Agency...............    76

Mr. Guido DeHoratiis, Acting Deputy Assistant Secretary for Oil 
  and Gas, Office of Fossil Energy, Department of Energy.........    82

Dr. David Russ, Regional Executive, Northeast Area, U.S. 
  Geological Survey..............................................    90

Dr. Robin Ikeda, Acting Director, Agency for Toxic Substances and 
  Disease Registry, Department of Health and Human Services......    93


                      REVIEW OF FEDERAL HYDRAULIC

                     FRACTURING RESEARCH ACTIVITIES

                              ----------                              


                         FRIDAY, APRIL 26, 2013

                  House of Representatives,
                                     Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:06 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Cynthia 
Lummis [Chairwoman of the Subcommittee on Energy] presiding.

[GRAPHIC] [TIFF OMITTED] 

    Chairman Lummis. Good morning. We are small in number, but 
mighty in commitment this morning. We welcome you to this 
morning's hearing. It is a ``Review of Federal Hydraulic 
Fracturing Research Activities.'' This is the fourth meeting of 
the Energy Subcommittee this Congress, and today we welcome our 
friends from the Environment Subcommittee to discuss this cross 
cutting issue. Some of them are still at a classified briefing 
on Syria and North Korea. We expect them to join us any minute. 
The reason we are starting on time and not waiting for them is 
we are tremendously time-constrained this morning due to votes 
coming up, and we want to have an opportunity to take advantage 
of the expertise you are providing here today.
    A primary recurring theme from our earlier hearings, which 
focused on energy markets and related technology subsidies, was 
the incredible transformation of the U.S. energy sector as a 
result of hydraulic fracturing-enabled shale production.
    So today we are building on this theme and drilling down 
into the science of hydraulic fracturing. Pun intended.
    In April of 2012, President Obama signed an Executive Order 
creating a senior level task force charged with coordinating 
Federal actions related to the development of unconventional 
natural gas. Concurrent with the President's announcement, EPA, 
DOE, and the Department of Interior signed a memorandum of 
understanding committing to development of an interagency plan 
to guide implementation of the Administration's $45 million 
budget request to study environmental impacts associated with 
unconventional oil and gas production.
    The agencies committed to release a draft of the research 
plan by October of last year, and to complete the final plan by 
January of this year. Today, a year after the President's 
original announcement, the Administration has not even released 
a draft version of its plan for public comment.
    So Congress and the public have very few details regarding 
the Administration's ongoing activities in this area. In 
addition to last year's $45 million request, the President is 
seeking an additional $38 million in Fiscal Year 2014. Our 
concerns regarding these activities are simple and 
straightforward: before Congress redirects tens of millions of 
dollars for this research effort, the Administration must tell 
us what it wants to spend the money on.
    Bringing sunlight to these activities is especially 
important, given the Administration's terrible track record of 
unsubstantiated allegations when it comes to hydraulic 
fracturing. Pavillion, which is in my home State of Wyoming, is 
at the center of this storm. In late 2011, EPA put Pavillion in 
the national spotlight with a ``draft'' report implying that 
fracking was somehow responsible for the quality of water in 
the areas near town.
    However, in the days and weeks that followed this 
announcement, the State of Wyoming, industry, and other Federal 
agencies exposed EPA's study as deeply flawed. Former 
Administrator Jackson even admitted to me during questioning at 
another committee that the EPA was not confident it had 
discovered groundwater contamination in Pavillion related to 
fracking. And she further said we have definitely not 
discovered it in ground--rather, in drinking water.
    Given its serious flaws, I have called on the agency to 
abandon the report and return to a collaborative effort with 
the State of Wyoming on how to resolve these issues around 
Pavillion. The people of Pavillion deserve resolution, and the 
State of Wyoming deserves deference for the hard work it has 
done to ensure that oil and gas development in our state is 
done safely. I certainly plan to follow-up with EPA and ensure 
that they get it.
    Policymaking related to fracking should be driven by open 
public debate based on peer-reviewed science, not political 
agendas. That is why we are here today, to ensure the 
Administration's fracking-related research activities are 
appropriate, balanced, and transparent.
    On a related note, I do want to express frustration with 
the lack of cooperation from EPA in planning this hearing. More 
than 4 weeks ago, we invited Bob Sussman to testify at this 
hearing on behalf of the agency, and despite this extended 
advance notice, and Mr. Sussman's role as EPA's senior policy 
representative on the interagency group that we are here to 
discuss, the agency refused to allow him to participate or to 
provide an explanation for its refusal. And we appreciate Dr. 
Teichman--now did I pronounce that correctly? We do appreciate 
your presence here today. But EPA's lack of cooperation is just 
unacceptable, and only raises further questions regarding the 
agency's transparency and ultimate intentions regarding 
fracking.
    I do, again, want to thank all of our witnesses for being 
here, and look forward to today's discussion.
    [The prepared statement of Mrs. Lummis follows:]

              Prepared Statement of Subcommittee on Energy
                        Chairman Cynthia Lummis

    Chairman Lummis: Good morning and welcome to this morning's 
hearing, A Review of Federal Hydraulic Fracturing Research Activities.
    This is the fourth meeting of the Energy Subcommittee this 
Congress, and today we welcome our friends from the Environment 
Subcommittee to discuss this cross-cutting issue. A primary recurring 
theme from our earlier hearings--which focused on energy markets and 
related technology subsidies--was the incredible transformation of the 
U.S. energy sector as a result of hydraulic fracturing-enabled shale 
production.
    Today we will build on this theme by (figuratively) drilling down 
into the science of hydraulic fracturing.
    In April of 2012, President Obama signed an Executive Order 
creating a senior level task force charged with coordinating federal 
actions related to development of unconventional natural gas. 
Concurrent with the President's announcement, EPA, DOE, and the 
Department of Interior signed a memorandum of understanding committing 
to develop an interagency plan to guide implementation of the 
Administration's $45 million budget request to study environmental 
impacts associated with unconventional oil and gas production.
    The agencies committed to release a draft of the research plan by 
October 2012 and complete the final plan by January 2013. Today, a year 
after the President's original announcement, the Administration has not 
even released a draft version of it plan for public comment.
    Consequently, Congress and the public have very few details 
regarding the Administration's ongoing activities in this area. In 
addition to last year's $45 million request, the President is seeking 
an additional $38 million in fiscal year 2014. Our concerns regarding 
these activities are simple and straightforward: before Congress 
redirects tens of millions of dollars for this research effort, the 
Administration must tell us what it wants to spend this money on.
    Bringing sunlight to these activities is especially important given 
the Administration's embarrassing track record of unsubstantiated 
allegations when it comes to hydraulic fracturing. Pavillion, a small 
town in my state of Wyoming, is at the center of this storm. In late 
2011, EPA put Pavillion in the national spotlight with a ``draft'' 
report implying that fracking was somehow responsible for the quality 
of water in the areas near town.
    However, in the days and weeks that followed this announcement, the 
State of Wyoming, industry, and other federal agencies exposed EPA's 
study as deeply flawed. Former Administrator Jackson even admitted to 
me during questioning at another committee that the EPA was not 
confident it had discovered groundwater contamination in Pavillion 
related to fracking.
    Given its serious flaws, I have called on the Agency to abandon the 
report and return to a collaborative effort with the State of Wyoming 
on how to resolve the issues around Pavillion. The people of Pavillion 
deserve resolution, and the State of Wyoming deserves deference for the 
hard work it has done to ensure that oil and gas development in our 
state is done safely. I certainly plan to follow-up with EPA to ensure 
they get it.
    Policymaking related to fracking should be driven by open public 
debate based on peer-reviewed science, not political agendas. That is 
why we are here today--to ensure the Administration's fracking--related 
research activities are appropriate, balanced, and transparent.
    On a related note, I want to express my great frustration with the 
lack of cooperation from EPA in planning this hearing. More than four 
weeks ago, we invited Bob Sussman to testify at this hearing on behalf 
of the agency. Despite this extended advance notice, and Mr. Sussman's 
role as EPA's senior policy representative on the interagency group we 
are here to discuss, the Agency refused to allow him to participate or 
even provide an explanation for its refusal. While we appreciate Dr. 
Teichman's presence here today, EPA's lack of cooperation is 
unacceptable, and only raises further questions regarding the agency's 
transparency and ultimate intentions regarding fracking.
    I thank our witnesses for being here, and look forward to today's 
discussion.
    I now recognize the gentleman from California, Mr. Swalwell, for 
five minutes.

    Chairman Lummis. And now I would like to recognize the 
gentleman from California, Mr. Swalwell, for five minutes.
    Mr. Swalwell. Thank you, Chairman, for holding this hearing 
today, and I also want to thank our witnesses for being here. I 
appreciate the opportunity to examine the important topic of 
hydraulic fracturing, often called fracking, in greater detail.
    I agree with those who say that when it comes to our 
country's energy resources, we should take an all-of-the-above 
approach to energy production. The emerging natural gas boom 
obviously provides an exciting opportunity for our Nation, not 
to mention California, my state, to create jobs and diversity 
energy options for both consumers and industry over the next 
several years. I believe that wherever it is possible, if we 
can make it environmentally safe, we can make it happen. 
However, when it comes to fracking, I believe we need to 
proceed with extreme caution. We have to be careful that if we 
are to extract this resource safely without inadvertently 
polluting either our drinking water or the environment, and in 
California, of particular concern is what fracking can do to 
cause earthquakes or to activate or reactivate previous fault 
lines. It would be very short-sighted to produce energy in 
California via fracking, only to find out later that it could 
cause such damage, which also means that maybe perhaps fracking 
may be better for one state than it is for anther, and that is 
also a conversation and a topic I am interested in exploring 
further.
    But for that reason alone, it is imperative that we know as 
much now as early as possible about what fracking can to do our 
fault lines in California before pursuing short term gains. And 
this is why I think this multi-agency effort is so important, 
and I applaud President Obama and the Administration for 
leveraging its diverse areas of expertise to determine the best 
practices for hydraulic fracturing going forward.
    I understand that the agencies testifying today have met 
their internal goal of submitting a draft plan before the end 
of 2012, and the final plan is now in the last stages of 
coordination with the Office of Management and Budget.
    In the meantime, this draft has already informed the 
President's budget request for each of these agencies, and the 
important research priorities that you have collectively 
identified are being addressed, even before the release of the 
final report, as you continue to work in close coordination 
with each other.
    I look forward to learning more about each of your efforts, 
discussing these important issues with you today, and reviewing 
the final report.
    And with that said, I yield back the balance of my time.
    [The prepared statement of Mr. Swalwell follows:]

              Prepared Statement of Subcommittee on Energy
                      Ranking Member Eric Swalwell

    Thank you Chairman Lummis and Chairman Stewart for holding this 
hearing today, and I also want to thank the witnesses for being here. I 
appreciate the opportunity to examine the important topic of hydraulic 
fracturing, often called fracking, in greater detail.
    I agree with those who say we need an ``all of the above'' approach 
to energy production. The emerging natural gas boom obviously provides 
an exciting opportunity for our nation--not to mention California--to 
create jobs and diversify energy options for both consumers and 
industry over the next several years.
    That said, when it comes to fracking, we need to proceed with 
extreme caution. We have to be careful that we extract this resource 
safely, without inadvertently polluting either our drinking water or 
the environment. Of particular concern to Californians is the 
possibility that hydraulic fracturing might cause earthquakes. It would 
be very short-sighted to produce energy via fracking only to find out 
later that it caused such damage.
    This is why I think this multi-agency effort is so important, and I 
applaud President Obama and his Administration for leveraging its 
diverse areas of expertise to determine the best practices for 
hydraulic fracturing going forward.
    I understand that the agencies testifying today have met their 
internal goal of submitting a draft plan before the end of 2012, and 
the final plan is now in the last stages of coordination with the 
Office of Management and Budget.
    In the meantime, this draft has already informed the President's 
budget request for each of these agencies, and the important research 
priorities that you've collectively identified are being addressed even 
before the release of the final report as you continue to work in close 
coordination with each other.
    I look forward to learning more about each of your efforts, 
discussing these important issues with you today, and reviewing the 
final report.

    Chairman Lummis. Thank you, Mr. Swalwell. And as you know, 
this is a joint hearing so the Chair now recognizes the 
Chairman of the Subcommittee on Environment, Mr. Stewart, for 
his opening statement.
    Mr. Stewart. Thank you, Madam Chairman, and welcome to the 
witnesses. Thank you for your being with us today, and to the 
Chair, thanks again for holding this hearing on what I think is 
a very important issue.
    Unconventional oil and gas development enabled by hydraulic 
fracking is a rare bright spot in our otherwise gloomy economy 
over the last few years. Given the importance of this issue, I 
too am disappointed that the EPA declined to send the witness 
we had invited, Mr. Bob Sussman, the Senior Policy Counsel to 
the EPA Administrator, to testify. While I hope the Agency had 
a good reason for its refusal to make Mr. Sussman available, 
they did not share this reason with us, and that troubles me. I 
think it invites suspicion and it begs to be answered why. I 
can only hope that this will prove to be an exception rather 
than a trend. This is especially concerning, as EPA's past and 
ongoing hydraulic fracturing studies and investigations 
demonstrate a cart-before-the-horse approach to the science 
that should make members think seriously about whether a blank 
check for the Administration is good policy.
    The shale gas revolution has not only brightened our 
economic prospects and created sorely needed jobs, it has 
strengthened our energy security. And as a former Air Force 
pilot and officer, I understand how important that is, as I am 
sure do most of you. Thanks to fracking, the U.S. is now poised 
to surpass Saudi Arabia and Russia as the world's largest oil 
and gas producer in just the next few years. This could 
dramatically alter the geopolitical landscape to the great 
benefit of American interests.
    Yesterday, we held a hearing to examine the science of 
climate change. And whatever one's position is on this issue, 
there is no denying that fracking is helping drive reductions 
in carbon emissions. U.S. greenhouse emission gasses are at 
their lowest level since 1994, and have dropped 12 percent 
since 2005. In fact, from 2005 to 2011, the U.S. decreased its 
carbon dioxide output more than any other nation, including 
those countries that have implemented aggressive green energy 
agendas, such as Germany and Spain. In light of these facts, it 
is both ironic and troubling that many of the most passionate 
advocates for action on climate change also oppose fracking. I 
wish that I understood this, but frankly, I don't.
    This should give pause to the EPA and any other agency that 
seeks to hinder the development of our unconventional natural 
gas resources. To do so not only negatively impacts our 
economy, but it increases emissions and undercuts major 
advances toward energy security. Rather than search for 
problems that do not exist, the EPA and this Administration 
should recognize that shale gas is a solution. It is not the 
problem. Production, not regulation, has led to a reduction in 
greenhouse gases, and market forces, not restrictions, quotas, 
and carbon trading schemes, those are the things that have 
positioned the U.S. as a global leader in oil and gas 
production. Again, market forces, not restrictions.
    I again thank the witnesses for joining us today, and I 
look forward to your testimony. I hope that you recognize, as I 
do, that searching for a problem as a pretext for regulation 
rather than focusing on the science is a waste of time and a 
waste of resources, and it runs counter to all of our 
interests, as well as to the national interest.
    And with that, I thank the gentlelady for the opportunity 
to be here, and I yield back the balance of my time.
    [The prepared statement of Mr. Stewart follows:]

             Prepared Statement of Subcommittee Environment
                         Chairman Chris Stewart

    Good morning and welcome to today's joint Energy and Environment 
Subcommittee hearing, A Review of Federal Hydraulic Fracturing 
Research. I want to thank Chairman Lummis for holding a hearing with me 
on this important issue.
    Unconventional oil and gas development enabled by hydraulic 
fracturing is a rare bright spot in our otherwise gloomy economy over 
the last few years. Given the importance of this issue, I too am 
disappointed that the EPA declined to send the witness we had invited, 
Mr. Bob Sussman, the Senior Policy Counsel to the EPA Administrator, to 
testify. While I hope the Agency had a good reason for its refusal to 
make Mr. Sussman available, they did not share this reason with us. I 
can only hope this will prove to be an exception rather than a trend. 
This is especially concerning, as EPA's past and ongoing hydraulic 
fracturing studies and investigations demonstrate a cart-before-the-
horse approach to the science that should make Members think seriously 
about whether a blank check for the Administration is a good policy.
    The shale gas revolution has not only brightened our economic 
prospects and created sorely needed jobs, it has strengthened our 
energy security. Thanks to fracking, the U.S. is now poised to surpass 
Saudi Arabia and Russia as the world's largest oil and gas producer in 
the next few years. This could dramatically alter the geopolitical 
landscape to the great benefit of American interests.
    Yesterday, we held a hearing to examine the science of climate 
change. Whatever one's position on this issue, there is no denying that 
fracking is helping drive reductions in carbon emissions. U.S. 
greenhouse gas emissions are at their lowest level since 1994, and have 
dropped 12 percent since 2005. In fact, from 2005 to 2011, the U.S. 
decreased its carbon dioxide output more than any other nation, 
including those countries that have implemented aggressive green energy 
agendas, such as Germany and Spain. In light of these facts, it is both 
ironic and troubling that many of the most passionate advocates for 
action on climate change also oppose fracking.
    This should give pause to the EPA and any other agency that seeks 
to hinder the development of our unconventional natural gas resources. 
To do so would not only negatively impact our economy, but increase 
emissions and undercut major advances toward energy security. Rather 
than search for problems that do not exist, the EPA and this 
Administration should recognize that shale gas is a solution rather 
than a problem. Production, not regulation, has led to a reduction in 
greenhouse gases, and market forces, not restrictions, quotas, or 
carbon trading schemes, have positioned the U.S. as a global leader in 
oil and gas production.
    I thank the witnesses for joining us today, and look forward to 
their testimony. I hope they recognize, as I do, that searching for 
problems as a pretext for regulation rather than focusing on the 
science is a waste of time, a waste of resources, and runs counter to 
the national interest.
    I thank the gentlelady, and I yield back.

    Chairman Lummis. Thank you, Mr. Stewart.
    The Chair now recognizes Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Chair Lummis and Chair 
Stewart, for holding this hearing. I am pleased to have 
representatives from the Federal agencies appearing before the 
joint Subcommittees today to discuss their multi-agency plan to 
research hydraulic fracturing and unconventional oil and gas.
    Hydraulic fracturing has led to a significant expansion of 
drilling for gas and oil in the United States, unlocking huge 
natural gas reserves that have reduced the cost of natural gas 
domestically and resulted in economic improvement across many 
industries. The successful development in application of this 
technology, however, has been accompanied by an insufficient 
understanding of the potential impacts that hydraulic 
fracturing, or fracking, might have on our environment and our 
health. The debate about environmental health and human safety 
issues has escalated as we have heard concerns related to 
groundwater contamination, induced seismicity events--and I 
share Mr. Swalwell's concerns as someone who has constituents 
along the Cascadia's adduction zone--well integrity and 
potential negative impacts to the health of workers, just to 
name a few.
    According to the Energy Information Administration, it is 
estimated that shale gas will supply almost 50 percent of our 
gas in 20 years. If that prediction is accurate, it is even 
more critical that this boom in natural gas production be 
accompanied by a clear development of best practices to 
identify and curb potential negative impacts.
    It is my hope that the multi-agency research plan will 
address these very important questions in order to ensure the 
continued prosperity of the industry, while preserving the 
health and safety of the general public.
    Hydraulic fracturing emerged as a commercial success in 
large part because of Federal investment in fracking 
technologies. The success the government had in aiding the 
fracking industry is an example of how public-private 
partnerships can work to advance science and engineering, and 
turn nascent technologies into an economic driver.
    Although I am a strong proponent of reducing our country's 
dependence on conventional gas and oil, I hope we make similar 
commitments to developing clean energy technology, with a 
similar focus on preserving human and environmental health. 
Diversifying our energy supply and protecting public health go 
hand in hand.
    In closing, I am pleased that the Administration is calling 
upon the expertise of our Federal agencies to ensure that we 
have the best scientific information available, use cutting 
edge technology, and develop best practices for extracting this 
plentiful resource in a manner that is safe for our workers and 
the environment. I look forward to hearing how the agencies 
plan to research and address these issues, and with that, I 
yield back and look forward to the testimony. Thank you, Madam 
Chair.
    [The prepared statement of Ms. Bonamici follows:]

           Prepared Statement of Subcommittee on Environment
                    Ranking Member Suzanne Bonamici

    Thank you, Chair Lummis and Chair Stewart. I am pleased to have 
representatives from the federal agencies appearing before the joining 
Subcommittees today to discuss their multi-agency plan to research 
hydraulic fracturing and unconventional oil and gas. Hydraulic 
fracturing has led to a significant expansion of drilling for oil and 
gas in the United States, unlocking huge natural gas reserves that have 
reduced the cost of natural gas domestically and resulted in economic 
improvement across many industries.
    The successful development and application of this technology, 
however, has been accompanied by an insufficient understanding of the 
potential impacts that hydraulic fracturing, or ``fracking,'' might 
have on our environment and our health. The debate about environmental 
health and human safety issues has escalated over the years, as we have 
heard concerns related to groundwater contamination, induced seismicity 
events, well integrity, and potential negative impacts to the health of 
workers, just to name a few. According to the Energy Information 
Administration, shale gas is estimated to supply almost 50 percent of 
our gas in 20 years. If that prediction is accurate, it is even more 
critical that this boom in natural gas production be accompanied by a 
clear development of best practices to identify and curb potential 
negative impacts. It is my hope that the multiagency research plan will 
address these very important questions in order to insure the continued 
prosperity of the industry while preserving the health and safety of 
the general public.
    Hydraulic fracturing emerged as a commercial success in large part 
because of federal investment in fracking technologies. The success the 
government had in aiding the fracking industry is an example of how 
public-private partnerships can work to advance science and engineering 
and turn nascent technologies into an economic driver. Although I am a 
strong proponent of reducing our country's dependence on conventional 
gas and oil, I hope that we make similar commitments to developing 
clean energy technology, with a similar focus on preserving human and 
environmental health. Diversifying our energy supply and protecting 
public health go hand in hand.
    In closing, I am pleased that the Administration is calling upon 
the expertise of our federal agencies to ensure that we have the best 
scientific information available, use cutting-edge technology, and 
develop best practices for extracting this plentiful resource in a 
manner that is safe for our workers and the environment. I look forward 
to hearing how the agencies plan to research and address these issues.

    Chairman Lummis. Thank you, Ms. Bonamici.
    I now recognize the Chairman of the Full Committee, Mr. 
Smith.
    Chairman Smith. Thank you, Madam Chair, and I have a very 
brief opening statement.
    It is difficult to overstate the incredible benefits of the 
fracking energy revolution that is underway across America.
    A recent report found that the Eagle Ford shale development 
in Texas is now producing 700,000 barrels of oil and natural 
gas liquids every day, up from zero just three years ago. The 
economic benefits and job opportunities associated with this 
shale boom, not just in Texas but across the Nation, is 
arguably the brightest spot in an otherwise still stagnant 
economy.
    Unfortunately, a widely publicized handful of 
unsubstantiated charges that fracking pollutes groundwater has 
led many to question the safety of this practice. The EPA is at 
the center of this debate, linking fracking to water 
contamination in at least three cases, only to be forced to 
retract their statements after further scrutiny.
    It is against this backdrop that we are here to consider 
the Administration's request to spend nearly $40 million across 
several agencies studying the safety of hydraulic fracturing 
that would be carried out under a long-delayed and still 
unreleased research plan.
    We all want to ensure safe and responsible production of 
oil and natural gas, but the combination of the 
Administration's track record on fracking and the delays 
associated with developing these plans provide cause for 
concern.
    I look forward to hearing how we can support this energy 
revolution and avoid any unnecessary delay in its evaluation by 
the Federal Government.
    Thank you, Madam Chair, and I yield back.
    [The prepared statement of Mr. Smith follows:]

      Prepared Statement of Full Committee Chairman Lamar S. Smith

    It is difficult to overstate the incredible benefits of the 
fracking energy revolution that is underway across America.
    A recent report found that the Eagle Ford shale development in 
Texas is now producing 700,000 barrels of oil and natural gas liquids 
every day-up from zero just three years earlier. The economic benefits 
and job opportunities associated with this shale boom--not just in 
Texas but across the nation--is arguably the brightest spot in an 
otherwise still stagnant economy.
    Unfortunately, a widely publicized handful of unsubstantiated 
charges that fracking pollutes ground water has led many to question 
the safety of this practice. The EPA is at the center of this debate, 
linking fracking to water contamination in at least three cases, only 
to be forced to retract their statements after further scrutiny.
    It is against this backdrop that we are here to consider the 
Administration's request to spend nearly $40 million across several 
agencies studying the safety of hydraulic fracturing that would be 
carried out under a long-delayed and still unreleased research plan.
    We all want to ensure safe and responsible production of oil and 
natural gas, but the combination of the Administration's track record 
on fracking and the delays associated with developing these plans 
provide cause for concern.
    I look forward to hearing how we can support this energy revolution 
and avoid any unnecessary delay in its evaluation by the federal 
government.

    Chairman Lummis. Thank you, Chairman Smith.
    Now for a little housekeeping. In front of each member are 
packets containing the written testimony, biographies, and 
Truth in Testimony disclosures for today's witnesses. As 
always, we will alternate between the Majority and Minority 
members in terms of asking questions. We will recognize those 
members present at the gavel in order of seniority on the Full 
Committee, and those coming in after the gavel will be 
recognized in order of arrival. One more little thing. If there 
are members who wish to submit additional opening statements, 
your statements will be added to the record at this point.
    Mr. Rohrabacher. Madam Chairman?
    Chairman Lummis. Yes? I recognize----
    Mr. Rohrabacher. Madam Chairman, I have--I am Chairman of a 
hearing that is about to happen in a few minutes from now, and 
I would just like to thank you for your leadership in calling 
this hearing today, and I will be submitting questions for the 
record and reading the testimony of the witnesses, but have to 
leave and I am sorry for that.
    Chairman Lummis. I thank the gentleman. Mr. Rohrabacher is 
a long-distinguished member of this Committee, and we 
appreciate his presence here this morning, and look forward to 
the submittal of your questions and the responses to them from 
the agencies here present. Thank you, Representative 
Rohrabacher.
    If there are additional opening statements, we will accept 
them now.
    Very well. That being said, it is now time to introduce our 
panel of witnesses. Our first witness is Dr. Kevin Teichman. 
Now did I get that right? It is Teichman. I had it right the 
first time, didn't I? Would you please say it again?
    Dr. Teichman. Teichman.
    Chairman Lummis. Teichman, all right. Thank you. Dr. 
Teichman is the Senior Science Advisor for the Office of 
Research and Development at the EPA.
    Our second witness is--now here we go. I am going to give 
it a shot, and please correct me. Mr. DeHoratiis?
    Mr. DeHoratiis. DeHoratiis.
    Chairman Lummis. DeHoratiis. Welcome. Mr. DeHoratiis is the 
Acting Deputy Assistant Secretary for Oil and Gas in the Office 
of Fossil Energy at the Department of Energy.
    Our third witness is Dr. David Russ--did I get that right?
    Dr. Russ. Perfectly well. Thank you.
    Chairman Lummis. Thank you. Regional Executive of the 
Northeast Area for the United States Geological Survey.
    And our final witness is Dr. Robin Ikeda----
    Dr. Ikeda. Ikeda.
    Chairman Lummis. Ikeda, all right. Dr. Ikeda is the Acting 
Director of the Agency for Toxic Substances and Disease 
Registry at the Department of Health and Human Services.
    We are, again, grateful for your presence here today. As 
our witnesses should know, spoken testimony is limited to five 
minutes each, after which, members of the Committee have five 
minutes each to ask questions. Your written testimony will be 
included in the record of the hearing.
    And now, I would like to recognize our first witness, Dr. 
Teichman, for five minutes.

                TESTIMONY OF DR. KEVIN TEICHMAN,

                    SENIOR SCIENCE ADVISOR,

              OFFICE OF RESEARCH AND DEVELOPMENT,

                ENVIRONMENTAL PROTECTION AGENCY

    Dr. Teichman. Good morning Chairmen Lummis and Stewart, and 
other distinguished Subcommittee Members. I appreciate the 
opportunity to talk with you today about EPA's research 
activities related to hydraulic fracturing.
    Among others, oil and natural gas are important sources of 
energy that will continue to play a vital role in our Nation's 
energy future. The extraction and development of these 
resources must be done safely, responsibly, and be guided by 
the best available science.
    In April 2012, DOE, DOI, and EPA signed a memorandum of 
agreement to develop a research program devoted to 
unconventional oil and gas production. Under this MOA, the 
three agencies are collaborating to provide information that 
will support sound policy decisions by Federal agencies, state, 
tribal, and local governments, the oil and gas industry, and 
others to ensure prudent development of these sources while 
promoting safe practices, human health, and the environment. 
The three agencies are coordinating their research planning, 
focusing on each agency's areas of core competency and 
collaborating on research with each other and others.
    Last July, the tri-agency steering committee held webinars 
for three different groups of stakeholders, industry, state and 
tribal governments, and not-for-profit organizations. At that 
time, we described the research areas we thought should be 
studied and asked each group what the most important research 
questions that can be addressed in the short term and in the 
long term? What would be the most useful research products, and 
what research is your organization pursuing?
    In addition, the members of the steering committee and its 
technical subcommittee continue to participate in technical 
conferences, meetings, and workshops devoted to this topic, at 
which we have presented them our research areas and asked the 
above questions.
    Specifically, EPA has taken steps to coordinate with other 
Federal agencies throughout the development and implementation 
of our drinking water study. For example, DOE and DOI are 
participants in the technical workshops related to our study. 
These workshops are devoted to analytical chemical methods, 
well construction and operation and subsurface modeling, 
wastewater treatment, water acquisition modeling, and hydraulic 
fracturing case studies.
    In the MOA, the three agencies committed to the development 
of a research plan that would, in brief, synthesize the state 
of knowledge; identify data gaps; prioritize research topics; 
and determine future goals and objectives. The research plan is 
still under development. Work to date to develop the plan has 
been very helpful in both coordinating the research efforts of 
the three agencies, and developing the President's 2014 budget 
request.
    In Fiscal Year 2012 and 2013, EPA's research related to 
hydraulic fracturing is focused on carrying out the 
Congressionally requested Study of the Potential Impacts of 
Hydraulic Fracturing on Drinking Water Resources. This research 
is focusing on assessing any potential impacts, as well as 
identifying the factors that may affect the severity and 
frequency of such impacts.
    Work is underway to answer the research questions listed in 
the study plan for this effort. EPA released a progress report 
in December 2012 which provided an update of the ongoing 
research. A draft report of results is expected in late 2014, 
which will synthesize our research results together with the 
available scientific literature to inform answers to the 
research questions listed in the study plan.
    As shown in the study plan, there are important questions 
outside the scope of the current study that are of high 
priority to stakeholders. Therefore, the tri-agency research 
plan will include research on potential impacts on air quality, 
human health effects, water, and ecosystems. This broader 
perspective is reflected in the Fiscal Year 2014 budget 
request.
    The Fiscal Year 2014 budget request is $14.1 million and 
$24.9 million FTE for EPA to conduct UOG research. Resources 
are requested for the drinking water study; water quality and 
ecological studies; and air quality studies. These research 
areas are among those identified as high priority research 
topics in the tri-agency effort and represent EPA's 2014 
contribution to that effort.
    As mentioned earlier, a draft report of the drinking water 
study results is expected in late 2014, and additionally, 
Fiscal Year 2014 resources will be used to revise the report as 
needed to reflect public and peer review comments.
    The remaining Fiscal Year 2014 requested resources will be 
used to better characterize the composition of wastewater and 
wastewater treatment residuals, including solids from hydraulic 
fracturing and UOG operations, and air emissions from these 
operations.
    In conclusion, I believe the prudent development of our oil 
and natural gas resources can make a critical contribution to 
meeting our Nation's energy needs. I am proud to be part of the 
research effort that will help enable the development of these 
resources in a way that maximizes the positive impacts and 
minimizes the potential negative ones. We are pursuing this 
work with the best available science and the highest level of 
transparency, and will continue to collaborate with our Federal 
partners and work with our stakeholders to address the highest 
priority challenges to safely and prudently developing 
unconventional shale gas and tight oil resources.
    Thank you.
    [The prepared statement of Dr. Teichman follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Chairman Lummis. Thank you, Dr. Teichman.
    Now I am going to try one more time. I love these American 
last names of global derivation. They are so much fun, and I 
think have Dr. Teichman and Dr. Ikeda down, so I am going to 
make one more run at Mr. DeHoratiis.
    Mr. DeHoratiis. That is correct.
    Chairman Lummis. Did I get it right?
    Mr. DeHoratiis. That is correct.
    Chairman Lummis. Great. The Chair now recognizes our next 
witness, Mr. DeHoratiis.

               TESTIMONY OF MR. GUIDO DEHORATIIS,

               ACTING DEPUTY ASSISTANT SECRETARY

               FOR OIL AND GAS, OFFICE OF FOSSIL

                  ENERGY, DEPARTMENT OF ENERGY

    Mr. DeHoratiis. Thank you. I want to thank the Chairs, the 
Ranking Members, and the Members of the Subcommittees for 
inviting me before you today to discuss the critical role that 
the Department of Energy, Office of Fossil Energy, in 
collaboration with the Department of the Interior and the 
Environmental Protection Agency, is playing to improve the 
safety and environmental performance of our Nation's 
unconventional oil and natural gas resources.
    Federal coordination and collaboration is critical to 
successfully addressing the challenges associated with the 
development of unconventional oil and gas resources. To this 
end, the President signed an Executive Order, which has already 
been referenced this morning. On the same day, our three 
agencies signed a related memorandum of agreement on 
collaborative research to better identify and address the 
highest priority issues associated with the safe and prudent 
development of unconventional oil and gas resources.
    This collaboration will address a subset of unconventional 
resources, namely shale gas, tight gas, shale oil, and tight 
oil, and a robust Federal research and development plan is 
under development. Each of the three agencies has a unique set 
of core capabilities relevant to this effort and will focus on 
those tasks that are most relevant to their respective skill 
sets. At the same time, the agencies will work together on 
tasks that require collaboration. The President's 2014 budget 
request includes $12 million for DOE to fund this effort.
    Shale gas development has brought new options to American 
consumers, along with new environmental concerns. This is a 
period of great opportunity for the prudent development of our 
country's resources which could make a positive contribution to 
our economy, jobs, and balance of trade. But to get these 
benefits we must do this right. Through targeted research and 
development, DOE can work with our agency partners, industry, 
and other stakeholders to help ensure that we are meeting our 
shared goal of safe and responsible development of these 
resources.
    The successful application of horizontal drilling and 
hydraulic fracturing technologies has enabled production to be 
extended to vast volumes of unconventional resources that were 
previously uneconomic to produce. To help ensure that 
development of our resources is done in a safe and responsible 
way, DOE is implementing research in areas that will include 
water quality and availability, air quality, induced 
seismicity, and mitigating the impacts of development.
    The Department is carrying out research directed at 
quantifying and understanding the environmental and safety 
risks of shale gas and shale oil development, improving our 
understanding of emerging and developing shale plays, and 
increasing the efficiency of technologies for treating 
hydraulic fracture flowback water.
    Our partnership with Altela to successfully treat hydraulic 
wastewater, which I detailed in my written statement, is a good 
example of the kind of projects we are pursuing. We are also 
focused on improving environmental performance by mitigating 
impacts related to well bore integrity and zonal isolation to 
protect the shallow groundwater resources and reducing water 
usage, air emissions, and resource degradation through improved 
unconventional resource stimulation that appropriately matches 
that technology to local geologic and hydrologic conditions.
    This work is a critical component of DOE's portfolio to 
advance the environmentally sound development of unconventional 
natural gas and oil resources and will support ongoing 
programmatic efforts.
    DOE has research experience and capabilities in drilling 
and production technologies, green technologies, complex 
systems, imaging, materials, earth science and engineering.
    DOE capabilities in drilling and production technologies 
include experience and expertise in quantifying, evaluating and 
mitigating potential risks resulting from the production and 
development of shale oil and gas resources that includes multi-
phase flow in wells and reservoirs, well control, casing, 
cementing, drilling fluids, and abandonment operations.
    The Office of Fossil Energy is committed to developing the 
science and technology that will allow the Nation to use its 
abundant fossil energy resources in a way that meets its energy 
needs, including sustaining a robust economy and ensuring 
environmental responsibility. We believe that continued 
progress will help in addressing issues of energy and 
environmental security, and ensure the maximum benefit to the 
U.S. taxpayers.
    This completes my prepared statement. I would be happy to 
answer any questions you may have. Thank you.
    [The prepared statement of Mr. DeHoratiis follows:]

    [GRAPHIC] [TIFF OMITTED] 

Chairman Lummis. Thank you, and your testimony provided a 
great segue way to Dr. Russ about the geological issues.
    Now, you are from the northeast region, so you have some 
experience with the Marcellus area, I assume.
    Dr. Russ. That is correct.
    Chairman Lummis. We are looking forward to your testimony, 
Dr. Russ. You may begin.

                  TESTIMONY OF DR. DAVID RUSS,

                      REGIONAL EXECUTIVE,

                      NORTHEAST AREA, U.S.

                       GEOLOGICAL SURVEY

    Dr. Russ. Thank you. Thank you for the opportunity to 
appear today to review Federal hydraulic fracturing research 
activities, the progress in coordinating research called for in 
Executive Order 13605, and the associated interagency 
memorandum of agreement, and the Department of Interior's role 
and responsibilities in carrying out this work.
    Interior supports the responsible development of natural 
gas as a clean energy source, so it is important to understand 
this resource as well as investigate and evaluate potential 
environmental impacts associated with shale gas development.
    The interagency collaboration builds on the core 
capabilities of each agency to ensure that our efforts are 
complementary and non-duplicative. The USGS does not regulate, 
nor does it manage lands or other resources. The USGS conducts 
scientific research and assessments of geologically based 
energy resources, including unconventional resources such as 
shale gas and shale oil. USGS programs that monitor and 
investigate the Nation's surface water and groundwater 
resources are fundamental in determining water availability and 
quality, including the potential impacts of resource extraction 
on drinking water, healthy ecosystems, and the sustainability 
of living species. USGS core capabilities also include the 
assessment of land-use change, critical to understanding the 
impacts of energy development activities on ecosystems and the 
socio-economics of communities, and the investigations of 
earthquakes, including earthquakes.
    To meet the challenge of safely and responsibly maximizing 
the contribution that unconventional oil and gas resources make 
to the total energy supply, DOE, EPA, and Interior are 
developing a collaborative research framework. The three 
agencies are building upon current work and identifying and 
prioritizing new research and development activities that 
support sound management and policy decisions by federal, 
state, tribal, and local entities. The goal is to produce 
decision-ready information to help ensure the prudent 
development of energy resources, and the protection of human 
health and the environment. Our effort encompasses a number of 
research topics, including the U.S. unconventional oil and gas 
resource assessment, characterization, and management; water 
quality; water availability; air quality and greenhouse gas 
emissions; effects on people and their communities; ecological 
effects; and induced seismicity.
    Interior, through the USGS, has ongoing and planned 
activities covering a range of research topics. Specific 
activities in fiscal years 2013 and 2014 are described in my 
written statement, but in general, USGS envisions a 
continuation of prior work that builds on core USGS 
competencies. For example, the USGS has historically had 
responsibility for assessing the undiscovered, technically 
recoverable hydrocarbon resources of the Nation and will 
continue this function for unconventional resources. The USGS 
will identify and model water-quality changes associated with 
the life cycle of unconventional oil and gas production, and 
will determine the impact of well injection and produced waters 
on groundwater quality. The USGS will support streamgage 
baseline monitoring in states where production is ongoing or 
planned, and will develop predictive tools and statistical 
models for estimating the amount of water needed for drilling 
and production operations. The USGS will also conduct 
wastewater toxicity testing and vulnerability assessments to 
identify and prioritize regions, aquatic communities, and 
wildlife habitats that have the greatest potential for impact 
from unconventional oil and gas activities. Decades of research 
have demonstrated that the deep injection of large volumes of 
fluids underground can induce earthquakes. The USGS will 
calibrate models against field and lab data to support the 
development of best management practices for minimizing induced 
seismicity. The USGS will analyze seismic data to update the 
national probabilistic seismic risk maps in ways that account 
for induced earthquakes.
    In conclusion, the research activities required to address 
questions related to hydraulic fracturing draw on the core 
capabilities and competencies of USGS scientists in geology, 
seismology, energy resource development, biology, and 
hydrology. I have briefly described many of our current and 
proposed hydraulic fracturing-related efforts in my written 
statement, but a number of other USGS programs also contribute 
to an improved understanding of these issues.
    Thank you again for the opportunity to discuss the 
activities of the USGS and the interagency effort to understand 
this important natural resource, and the potential impacts of 
its development. We appreciate your interest in and support for 
our science, and I would be happy to answer any questions that 
Members may have.
    [The prepared statement of Dr. Russ follows:]

    [GRAPHIC] [TIFF OMITTED] 
   
    Chairman Lummis. Thank you, Dr. Russ.
    Now we turn to Dr. Ikeda.
    Dr. Ikeda. Ikeda.
    Chairman Lummis. I thought I had yours. I am sorry, Ikeda. 
Correct?
    Dr. Ikeda. Correct.
    Chairman Lummis. Thank you. You are recognized, Dr. Ikeda.

                 TESTIMONY OF DR. ROBIN IKEDA,

                        ACTING DIRECTOR,

                  AGENCY FOR TOXIC SUBSTANCES

                     AND DISEASE REGISTRY,

                      DEPARTMENT OF HEALTH

                       AND HUMAN SERVICES

    Dr. Ikeda. Good morning, Chairwoman Lummis, Chairman 
Stewart, and Members of the Subcommittees. Thank you for the 
opportunity to present this testimony.
    I am pleased to represent the Department of Health and 
Human Services to provide you with an update of our work 
related to hydraulic fracturing. Although our work related to 
hydraulic fracturing at HHS is limited in terms of the amount 
of work we do, we provide technical assistance and scientific 
expertise to our Federal colleagues and others. President Obama 
has made clear his commitment to the safe and responsible 
development of our natural gas resources as part of the all-of-
the-above energy plan. I will briefly describe the missions for 
the three HHS components that conduct work related to hydraulic 
fracturing.
    CDC, ATSDR focuses on protecting people in communities from 
environmental exposures to harmful substances. The National 
Institute for Occupational Safety and Health, NIOSH, which is 
also part of CDC, is responsible for preventing work-related 
injury, illness, and death. As part of NIH, the National 
Institute of Environmental Health Sciences, NIEHS, conducts 
basic applied and clinical research on the health effects of 
environmental exposures. None of these three agencies have 
regulatory authority.
    Our work related to hydraulic fracturing is in primarily 
four areas. First, we coordinate with federal, state, and local 
partners. We define research gaps and other information needs. 
We evaluate site-specific health conditions and potential 
exposures in communities, and we assess potential workplace 
exposures. If we identify harmful exposures in the community or 
the workplace, we recommend actions to protect communities and/
or workers.
    Our work related to hydraulic fracturing has been in 
collaboration with federal, state, and local partners. HHS has 
provided technical support to the multi-agency work group on 
research related to unconventional oil and gas development. 
Although HHS is not a member of the steering committee, we have 
provided technical and scientific input to this initiative at 
the Committee's request. In addition, HHS has provided input on 
design of EPA's study looking at the potential impacts of 
hydraulic fracturing on drinking water resources.
    HHS is also working to better define public health research 
gaps and other information needs related to hydraulic 
fracturing. In 2012, we participated in three meetings to 
assess the public health research needs in this area. Other 
participants at these meetings included experts from industry, 
academia, and the government. Along similar lines, NIEHS 
provided a small grant to the University of Rochester for a 
one-year project to help understand the health and hydraulic 
fracturing related information needs among various health 
professionals, government officials, and communities in New 
York, North Carolina, and Ohio. Information from this project 
will be used to develop recommendations about how to respond to 
the public's need for information about health and hydraulic 
fracturing, and to guide future research.
    ATSDR's site specific activities focus on whether health 
hazards exist from exposures to harmful substances in air, 
water, and soil. Typically, this work has been done at the 
request of EPA and/or state agencies. If public health risks 
are identified, ATSDR makes recommendations that individuals, 
organizations, or government agencies can take to protect 
health. ATSDR also follows up with local residents to make sure 
they understand the findings.
    In the last two fiscal years, ATSDR has completed more than 
300 of these site specific consultations, but only a small 
proportion of these consultations, eight sites in total, have 
been related to health concerns in areas with ongoing hydraulic 
fracturing activities. Our work at these eight sites has 
generally fallen into three categories: sites where there are 
concerns about the water quality, those where air quality is an 
issue, and then those where there are potentially explosive 
hazards, such as methane.
    NIOSH works closely with industry colleagues to assess 
potential workplace exposures and if indicated, recommends 
actions like safe worker practices, use of protective 
equipment, or engineering controls to protect workers. To 
address an existing lack of information about dust and chemical 
exposures associated with hydraulic fracturing, NIOSH initiated 
an effort to better understand occupational exposures among oil 
and gas extraction workers. With respect to hydraulic 
fracturing, exposure to airborne silica during the fracturing 
process has been the primary focus of NIOSH work to date. 
Additional NIOSH activities related to hydraulic fracturing 
include developing a research agenda and evaluating or 
examining other potential worker safety hazards, such as falls, 
chemical exposures, or fires and explosions.
    In conclusion, HHS, working with our Federal and state 
partners, communities, and industry, supports the President's 
commitment to the safe and responsible development of our 
natural gas resources as part of the all-of-the-above energy 
plan.
    Thank you for the opportunity to testify today. I am happy 
to answer your questions.
    [The prepared statement of Dr. Ikeda follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Chairman Lummis. I thank the witnesses for their testimony, 
and the Chair now recognizes herself for the first questions.
    I want to start with each of you. Having been an ex-pat 
member of the Interior and Environment Appropriations 
Subcommittee, a lot of them are going to be related towards 
spending.
    In Fiscal Year 2013, the EPA, DOE, and USGS were given a 
combined $45 million for fracking related research at your 
agencies. Can each of you from those agencies tell us how much 
your agency plans to spend this year related to this proposal?
    Dr. Teichman. We will take it in the order that we 
testified earlier, Chairman Lummis, and I believe I got that 
correct.
    Chairman Lummis. Thank you, Dr. Teichman. Yes, Lummis, 
rhymes with hummus. Thank you.
    Dr. Teichman. And let me also thank you, and in a moment of 
bipartisan support, Representative Bonamici as well for rocking 
the red as Washington Capitals fans. I appreciate your red 
blazers here this morning.
    One other very brief personal note. I thank all the 
Committee Members for their work in the prior half an hour to 
this hearing, as one who was on the Tokyo metro system the 
morning that the Sarin attack occurred, just happened to be at 
a different station, and whose son worked for Senator Frist 
when the letter with ricin was opened in that office. So I 
appreciate the seriousness of your work.
    In Fiscal Year 2013, the EPA will spend $6.1 million and 
14.9 FTE to continue the drinking water study that we began at 
the request of Congress in the Fiscal Year 2010 appropriations 
report.
    Chairman Lummis. Thank you, Dr. Teichman.
    Mr. DeHoratiis. Good morning. In Fiscal Year 2013, the 
Department of Energy plans to spend $10 million to support the 
effort, the research areas that support the topics that are in 
the framework.
    Chairman Lummis. And Dr. Russ?
    Dr. Russ. Thank you. Yes, our Continuing Resolution 
sequestration information is still being sent over, I believe, 
from OMB to the Congress, but our intention is for Fiscal Year 
2013 to spend approximately $8.6 million.
    Chairman Lummis. Okay. A follow-up for you, Dr. Russ. Last 
year I was part of a discussion with Dr. McNutt in Interior 
Approps on whether we should grant USGS the extra money for 
these studies. And I was a little concerned about duplication, 
but I really was most supportive of the USGS portion, because 
Dr. McNutt told me on the record that the money would be used 
to develop best practices for wastewater injection and seismic 
activity. And you alluded to those continued uses in your 
testimony. So that, as I understand it, is still the plan going 
forward?
    Dr. Russ. Yes, it is, Congresswoman.
    Chairman Lummis. No changes there?
    Dr. Russ. No.
    Chairman Lummis. No expansion there?
    Dr. Russ. There will be a modest expansion, I think, in our 
induced seismicity component where we have a little bit more 
money this year than last to look at the impacts of induced 
seismicity and by looking at things like injection rates of 
fluids underground to better understand the impacts potentially 
producing earthquakes, and working with EPA, as well as 
industry to understand best management practices potentially 
reduce the occurrence of these types of events.
    Chairman Lummis. Okay. I am a landowner and I am in a split 
estate situation where the oil and gas is being developed and 
so for somebody like me who owns the subsurface but not the 
surface, obviously we are very concerned about wastewater 
injection issues and appreciate USGS expertise in that area.
    Dr. Teichman, I also had last year a discussion on fracking 
with former Administrator Jackson at the Interior 
Appropriations Subcommittee. It was not quite as satisfying to 
me as my exchange with Dr. McNutt. It was in that testimony 
that Ms. Jackson admitted the EPA had found no conclusive 
evidence that fracking had caused contamination in Pavillion, 
Wyoming. This after the huge expose in the New York Times 
indicating after they had released their draft report that 
Wyoming was not in as positive a position as people thought it 
should be.
    Exactly how does the EPA intend to use this research money 
in a way that doesn't duplicate its other studies related to 
fracking, especially does not duplicate the lack of peer-
reviewed science and the lack of transparency that is the 
hallmark of the Pavillion draft report, especially its release 
as a draft report that was extremely critical and quite 
frankly, wrong, and created this big flurry of concern about 
fracking, and now has been completely impeached by subsequent 
work. How can you assure me that doesn't happen again?
    Dr. Teichman. Perhaps the best thing I can do I tell you 
the interactions we have had with our Science Advisory Board on 
the EPA drinking water study that I am a part of.
    I would note for you that in Dr. Ikeda's written testimony, 
it refers to the fact that the Pavillion, Wyoming situation is 
not part of the EPA drinking water study, and so I wish to draw 
that distinction to your attention.
    Chairman Lummis. And I would wish to draw the point that 
Lisa Jackson, when I asked her is the drinking water 
contaminated by fracking in Pavilion, and she testified no. So 
what--the problem I am having is that EPA is not distinguishing 
in people's minds drinking water versus groundwater, non-
drinking groundwater. And furthermore, the fact that EPA was 
probably responsible for contaminating some of those wells 
during the testing process adds to the further frustration, and 
you know, Pavillion is frequently held up as the poster child 
for bad practices and bad consequences, when it was hugely 
prematurely released. It has not been peer reviewed. It was 
exaggerated, and in fact, it appears that EPA itself was 
contaminating those wells in their own efforts.
    I am hugely frustrated with the EPA and its treatment of my 
state and of fracking in general. It is as if it tried to 
create an example at Pavillion to exacerbate or raise the 
profile of fracking as a national issue without the science to 
back it up. So I--so the distinction between groundwater and 
drinking water is important.
    My time is--oh yeah, my time is way up, excuse me.
    I yield to the Ranking Member, Mr. Swalwell, with my 
apologies.
    Mr. Swalwell. Thank you, Chair Lummis, and no apology 
needed. I am interested in this discussion as well, and as I 
mentioned in my opening remarks, perhaps with fracking we may 
find that the drinking water and groundwater contamination 
concerns would apply to any state that has or participates in 
fracking, but then once you look at individual states, you 
might find that there are issues that are unique to those 
states. And I am talking, of course, about California.
    And so Dr. Russ, as I noted in my opening statement, my 
constituents in California are particularly concerned about the 
possibility of manmade earthquakes. I represent the Hayward 
Fault. That is in my district, and it is an internationally 
known fault line. Nature and physics give us enough problems as 
it is, so how significant is the potential for induced 
seismicity, and what are some of the ways that we can 
sufficiently address that risk, as well as what do we know now 
and what do you want to know in the future? And I was 
encouraged to hear that there may be some funding that can be 
put towards further studies.
    Dr. Russ. Thank you, Mr. Swalwell. Yes, induced seismicity 
we regard as a very important topic for research. We want to 
know more about how many earthquakes are occurring in areas 
where fluid is being injected underground, wastewater fluid is 
being injected. We want to know the rate in which those events 
are occurring, and the size of those events. We want to know if 
one earthquake that has been induced can trigger another 
earthquake, and can it be a larger, more damaging earthquake? 
We want to know the relationship between the pressure and the 
rate of injection and the volumes of water and waste materials 
that are injected underground so we can calibrate those rates 
against the potential occurrence of earthquakes.
    Mr. Swalwell. And what do we know now?
    Dr. Russ. We know now that there is relationships between 
the occurrence of these induced earthquakes and the locations 
of subsurface injection wells. We know that it is important to 
understand if there is an active fault nearby injection sites, 
which could be--that fault might be ruptured and trigger an 
event. We know that there has been a significant uptick in the 
numbers of small to medium earthquakes in the central United 
States, which we believe are associated largely with induced 
earthquakes.
    Mr. Swalwell. Great. And also, Dr. Russ, in my state, as in 
many, water is a precious resource and fracking is an extremely 
water-intensive process. If these activities were to expand 
into Northern California, do you have a sense of where the 
required water resources would be obtained from, and what the 
impact on local water availability would be?
    Dr. Russ. Very good question. Water availability is one of 
the key research topics that are in our draft research report. 
Each area, as you mentioned, is unique in terms of its 
occurrence, the nature of where the aquifers are and where the 
various units of contained water, whether it is streams or 
subsurface sources. So we would have to take a look at that 
individual area to determine what are the actual occurrences 
and the problems. Also, seasonality of the weather in a given 
area affects water availability, so the weather is an important 
component as well.
    Mr. Swalwell. Will the research plan also examine 
alternative fracking fluid technologies that would be less 
harmful to the environment?
    Dr. Russ. Yes, that is the intent.
    Mr. Swalwell. Okay. Also will the research plan examine 
recycling of wastewater that would be produced in the fracking 
process?
    Dr. Russ. I am not sure if that is--if I have the knowledge 
on that one.
    Mr. Swalwell. Okay, any other witness? Dr. Teichman?
    Dr. Teichman. Yes, I believe the research plan will include 
the ability of recycling wastewaters as a way of preserving 
water acquisition and not introducing additional chemicals into 
the hydraulic fracturing process.
    Mr. Swalwell. Great. And going back to where I started, for 
all witnesses, would you agree that at least right now, as I 
mentioned, we must proceed with extreme caution but that we may 
find that some states are better suited, if you can address the 
groundwater and drinking water concerns that some states may be 
better suited for exploration through fracking rather than 
other states?
    Dr. Teichman. I will take the first stab and then turn, 
perhaps, to Dr. Russ, and to state that certainly the 
geological formations are different in different states, and 
the approaches to be taken, therefore, should be dependent upon 
what the different states geology is. For those who are 
traditionally drilling much deeper than the aquifers, then I 
think we would expect that practice to certainly be more 
positively environmentally friendly than those who might be 
drilling into them.
    Mr. Swalwell. Great. Actually, I will yield back the 
balance of my time. Thank you, Chair.
    Chairman Lummis. Thank you. I thank the Ranking Member.
    Next we go to the Chairman of the Environment Subcommittee, 
Mr. Stewart.
    Mr. Stewart. Thank you, Madam Chairman. I want to go 
through a couple of questions, but I want to divert just if I 
can and do some very quickly.
    Dr. Russ, I would like to comment on some of the things you 
have said. You know, I am afraid that you would leave the 
impression with the American people being familiar with this 
hearing today that there is a great risk of massive earthquakes 
because of water reinjection and hydraulic fracking. Is that 
your intention here with your testimony?
    Dr. Russ. No, it is not.
    Mr. Stewart. Because we agree that this is very, very 
immature science, and we really can't draw any conclusions yet 
at this point, is that true?
    Dr. Russ. I would say that is true in terms of potential 
damaging earthquakes.
    Mr. Stewart. Okay. So there is some speculation, but very, 
very little evidence to draw any conclusions to this?
    Dr. Russ. We are very early in our research.
    Mr. Stewart. Okay, thank you for that.
    A couple others, and again, I will make these very easy if 
I could. I am supposing that none of you would disagree with 
the President's belief that greenhouse gas emissions pose a 
global threat. Would that be true? None of you would disagree 
with that? Okay.
    And then let me, if I could just cite a point, from 2005 to 
2011, which I know that you all are familiar with, of course, 
the greenhouse gas emissions have decreased by 12 percent. And 
over this same period, global greenhouse emissions have 
actually increased significantly, and a lot of the reason for 
this is because of our abundance of natural gas. Then could we 
agree that it is a good thing--it would be a good policy that 
it was something we want to facilitate everything that we can 
do to increase our natural gas production. Would we agree that 
that is a good event?
    Dr. Teichman. Let me just state in my testimony that I 
believe we should indeed develop our energy sources in a way 
that maximizes the positive benefits and certainly minimizes 
the negative. I would, however, mention if you ask me which is 
the cleanest form of energy, it is energy conservation.
    Mr. Stewart. Okay, but the policy being is it is good for 
us to facilitate natural gas production, any of you disagree 
with that? Okay, thank you then.
    Then in your testimony, either written or in some cases, 
your testimony today, you praise the benefits of natural gas 
but you caution that, as you said, we want to reap these 
benefits but we want to ``do it right.'' And given that these 
practices, they have been going for decades. This isn't 
something that is new. There are some new variations of the 
technology, but this isn't dramatically new or different than 
what we have been doing for quite a lot of time. And to my 
knowledge, there are no proven instances of groundwater 
contamination, and as we have just said, greenhouse gasses have 
been declining thanks to natural gas, and so I would ask you, I 
mean, what have we done wrong? We say we want to do it right, 
but what are our concerns? What have we done wrong up to this 
point? And I would invite any of the panelists to try and 
answer that.
    Dr. Teichman. Let me try and start by stating that I 
believe that the technology of drilling very deeply and 
horizontally with new drill bits and using hydraulic fracturing 
is something which the combination of has allowed us to see a 
much greater resource than I would say we knew of decades ago, 
to refer to your question.
    Mr. Stewart. Which is a great thing.
    Dr. Teichman. I certainly am glad to see domestic energy 
supplies that may reduce our reliance on foreign supplies, 
absolutely I agree with you in that regard.
    To that extent, I think these newer combination of 
technologies we just need to make sure we are maximizing the 
positive benefits of the exploration of natural gas and oil, by 
the way, and minimizing the potential for environmental harm at 
the same time.
    Mr. Stewart. Okay, so there isn't anything particular that 
you think we have done wrong up to this point, would that be 
true?
    Dr. Teichman. I think that is true, although I would think 
that work that I have heard industry talking about, and I hope 
is being implemented, to have stronger casings or additional 
casings when they go through aquifers, to recycle the 
wastewater to go ahead and use greener fracking fluids, I would 
very much encourage work in that direction.
    Mr. Stewart. And I think all of us would, by the way, 
Doctor. I think--I mean, there would be very little argument. I 
can't imagine a reasonable argument against those suggestions 
at all.
    Dr. Teichman. I think that is right, other than sometimes 
they may cost a little bit more, but I believe in the long run 
it is to the benefit of all.
    Mr. Stewart. Okay, and again, my fear is that there is 
perception that this panel or that some others may create, kind 
of coming back to the, you know, the earthquakes. Holy cow, you 
know, we are going to have this enormous event when we don't 
know that, and my fear is that the perception is that we would 
leave the American people that we have done something wrong, 
that we have been remiss in our environmental concerns up to 
this point, and I just don't think that is the case. I don't 
think the evidence supports that, and I appreciate that you 
would agree with that.
    With that being said, my time is up and I yield back to 
you, Madam Chairwoman.
    Chairman Lummis. Thank you, Chairman Stewart.
    The Chair now recognizes Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Madam Chair. I have 
several questions and very little time, so I am going to ask a 
few at a time and then allow you an opportunity to respond, so 
the first question is to Dr. Russ.
    I want to follow up on your testimony about water 
availability research where you said that the USGS will develop 
water budgets to understand how much water is required to 
produce UOG deposits. So when you are analyzing the suitability 
of different communities, do you take into account the local 
economy's water need, both present and future, to support 
potential future economic growth? So hold that, and then my 
next question is to Dr. Teichman.
    Dr. Teichman, yesterday in the Environment Subcommittee, we 
held a hearing on policy relevant issues related to climate 
change. We discussed the impacts of greenhouse gas emissions on 
the planet and all of the witnesses who testified agreed that 
anthropologic climate change is happening, and we need to take 
action to address it. Now one concern I have heard about 
hydraulic fracturing is the possibility of fugitive emissions 
of methane gas, so I wanted you to please describe what the EPA 
is doing with your ongoing studies into the potential of 
fugitive emissions of methane from hydraulic fracturing.
    And then finally for all of the panel, we have had, in the 
Environment Subcommittee, several discussions about stakeholder 
input, which is an important issue when discussing scientific 
and environmental and public health issues. Now obviously, 
there has been some miscommunication and misinformation 
regarding hydraulic fracturing, so will you please detail what 
efforts you have made to get input from stakeholders related to 
your research plan, and also what you are planning to do to 
communicate and reach out to the public to ensure that the 
general public and stakeholders are informed about what you are 
doing.
    So starting with Dr. Russ on the water.
    Dr. Russ. Thank you. A water availability and the 
development of water budgets, we feel, is a critical component 
to understand the amount of water it takes--is used, actually, 
in the overall operations of hydraulic fracturing and related 
activities. And yes, the water availability takes a look at all 
of the uses of water, surface water, groundwater, including the 
water that is needed to supply normal communities with the 
waters that they need, whether it is drinking water, 
irrigation, or whatever, so it does include all of these 
sources.
    Ms. Bonamici. And also, do you consider the potential 
future to support economic growth in a particular community?
    Dr. Russ. Yes, socioeconomics is a part of this study.
    Ms. Bonamici. Thank you very much.
    Dr. Teichman on the----
    Dr. Teichman. Fugitive emissions.
    Ms. Bonamici. That is it.
    Dr. Teichman. Right. Indeed, that is a concern that we have 
that we actually believe the industry shares with us, that we 
should not have such methane stray emissions occurring as part 
of the drilling process, and therefore, I believe--although 
this is somewhat out of my bailiwick and more into the policy 
side as opposed to the research, that we have a new source 
performance standard on well completion, that therefore would 
minimize the methane emissions associated with the completion 
of wells, and such that the material that would be collected by 
the industry and so saving those methane emissions could 
actually reap greater benefits than the cost to do so.
    Ms. Bonamici. Thank you.
    And for the panel--did you want to add something?
    Dr. Teichman. No, I was just going to go to your second 
question----
    Ms. Bonamici. Okay, perfect.
    Dr. Teichman. --for the panel, but I will be very brief 
because I can spend too much time on this. But part of the EPA 
drinking water study, just to give you an example, in our 
development of the study plan for it, there were four public 
stakeholder meetings, an e-mail box set up, public comment was 
offered on the draft study plan, the SAB consulted and had an 
opportunity for public comment then from the stakeholders. The 
SAB had a peer review of the study plan. There were technical 
workshops, webinars, a docket was set up, a list serve, and 
that is just on the study plan. We have had the same type of 
external outreach on our study conduct.
    Ms. Bonamici. Thank you. Others on the panel, would you 
please comment on stakeholder input and communication to 
public?
    Dr. Russ. Yes, as we have gone through the plans an 
preparation of our draft research plan, we have webinars with 
industry, with states, with academia, and other nongovernmental 
organizations. We have, in addition, participated in many 
professional meetings and other community meetings that have 
asked about what we are looking at, including in our research 
plan. Particularly, we have worked with states through things 
like river basin commissions and participated in their meetings 
to understand the potential effects and water use of hydraulic 
fracturing. So we take their comments into consideration when 
we build our ideas for the report.
    Ms. Bonamici. Thank you, and the others, I have a bit of 
time left. Mr. DeHoratiis?
    Mr. DeHoratiis. Yes, the Department of Energy participated 
in both the EPA activities and USGS activities, especially in 
terms of the webinars and presentations that were made. We have 
had also additional interactions with industry and participated 
in several, you know, public professional organizations. You 
know, there are societies that we have given presentations at 
the Society of Petroleum Engineers and other professional 
activities.
    Ms. Bonamici. Thank you.
    Dr. Ikeda. And I will just mention a few activities along 
these lines, and not necessarily related to the research plan, 
but so for example, the project that I mentioned during my 
testimony that NIEHS is supporting that does--they are looking 
at information needs from the community, so that is one 
activity. Another is that part and parcel of our standard 
operating procedures when we work at the sites that I mentioned 
is to communicate findings back to the community and address 
any concerns or questions that they might have at that time. 
And then I would also add that NIOSH works very closely with 
industry and the Silica example that I mentioned in my 
testimony have also worked very closely to communicate findings 
with workers, along with industry partners.
    Ms. Bonamici. Thank you, and I see my time has expired. 
Thank you, Madam Chair.
    Chairman Lummis. Thank you, and we--the Chair now 
recognizes the gentleman from Texas, Mr. Hall.
    Mr. Hall. I thank you, Madam Chairman, and I would like to 
use a lot of my time to tell you how very proud I am of you, 
and I am going to, again, thank our Chairman, Chairman Smith, 
for selection of you to head this Committee, because you are 
doing a wonderful job. You ask the proper questions. You didn't 
get proper answers.
    I just want to say when it comes to hydraulic fracturing, 
EPA has gained notoriety for using just driven science and 
levying allegations that later have to be retracted and have 
been retracted. I think certainly several examples such as--
Dimock, Pennsylvania; Parker County, Texas; and Pavillion, 
Wyoming that the Chairperson alluded to where it appears that 
the agency is more interested in rushing judgment and placing 
information in the hands of the media than they are looking for 
sound scientific approach.
    I just think that it is pitiful, and then when they mention 
the first lady of--we invited her to come before us, Lisa 
Jackson. We had to do everything but threaten to subpoena her 
to get her and finally got an agreement from her to appear at 
10 o'clock one morning. That 10 o'clock happened to be the day 
that the Supreme Court guessed wrong on Obamacare, and she was 
a member of the--that had to be with the President that day, so 
she escaped that. Lisa Jackson came before this Committee and 
made the statement that they were not in the business of 
creating jobs. I think that is one of the meanest things I have 
ever heard anybody testify to here at a time when men are 
having to go home and face their families. They can't send 
their daughter to school or they can't keep their son in school 
or they can't continue to feed their own family. I just think 
we are in a critical time. And when the EPA answered to 
Congressman Rohrabacher, ask him, he asked the question do you 
know of anywhere, any time when fracturing has caused 
mistreatment of drinking water, every one of them said no. 
Nowhere in the United States.
    Mr. Teichman, in May of 2012, Fred Hauchman, who was the 
director of the EPA's Office of Science Policy, said that the 
agency is ``doing a pretty comprehensive look at all of the 
statutes to determine where there are some holes to justify 
further regulation of hydraulic fracturing.''
    I guess my question to you, Mr. Teichman, can you assure 
this Committee that EPA will not use a steering committee or 
the broader interagency working group to search for holes or 
engage in a search for ways to regulate hydraulic fracturing, 
rather than trying to help Congress find some way to support 
jobs and seek for jobs? You have come to my state and you came 
to my state and without yielding to scientific--and I would 
like to remind you, sir, that you are under oath when you come 
here, and that there is a statute of limitations when you 
mislead a Congressional Committee. That statute has not run. It 
won't run until we have a new President, and I am really proud 
of the Chair for taking you on. I guess I just ask that one 
question to you as to whether or not you can assure the 
Committee that the EPA is not going to use false and unrelated 
testimony that you later have to go back on or if the courts 
have to turn you around on, and both of those things have 
happened, have they not?
    Dr. Teichman. I can't speak to the testimony about the rest 
of the EPA. I can tell you that I signed for this Committee the 
truth and whatever the official term is, or the document, I 
apologize, and I am very glad to have done so and there is 
nothing I have said here to the best of my knowledge is not 
totally truthful, nor will it be for the rest of the answer to 
this question.
    The answer to your question, I believe, is in my testimony 
where the research that we are doing at EPA, if you were to ask 
me who the intended audience is, it is indeed Federal agencies. 
It is also state, local and tribal governments. It is also the 
oil and gas industry, and it is also the general public, and I 
believe those are the policymakers, not me as the researcher, 
who will make the decisions on policymaking, and I am hoping to 
provide research results that inform all of their thinking in 
the soundest possible way.
    Mr. Hall. I don't know whose direction you are following, 
but when you come here and give us bad science backup for your 
testimony, that gives me some question about what your attitude 
is, and one of the young ladies up there said that your job is 
to protect the citizens, and that is what you are trying to do. 
Our job is to also protect jobs and to be sure that we have 
proper science when decisions are made that affect this entire 
country.
    I think my time is up. I would just leave with this. One of 
the horses next Saturday in the Kentucky Derby, there's a horse 
named Frac Daddy, F-r-a-c D-a-d-d-y, and he has the same odds 
that you have with me. He's a 45-1 long shot.
    I yield back my time.
    Chairman Lummis. I thank the gentleman from Texas, and 
recognize Mr. Veasey.
    Mr. Veasey. Thank you, Madam Chair.
    I wanted to talk with you specifically about this issue, 
and I don't know if you have heard me speak before the 
Committee before, but I really sort of represent a very unique 
perspective when it comes to drilling, because most of the 
drilling that I am--that happens--that I know about--that I am 
more familiar with, I will say, happens in an urban setting. I 
live in Ft. Worth, Texas, which is basically the hub of the 
Barnett shale, and so, I mean, I live in a city with 700,000-
plus people, but I have frack ponds, pipelines, compressor 
stations, you name it, in neighborhoods. And so it is certainly 
a difference, because I can tell you that while this issue has 
been controversial in other areas, including Ft. Worth, it is 
not controversial in Midland, Texas, where it is a part of the 
everyday life and basically makes up their entire economy.
    And so what I wanted to ask you specifically, because I 
have about 438 active wells in my district right now, and 
wanted to ask you, has any of your research been centered on 
the effects of natural gas in an urban setting? Because--and 
another reason why that is so important is that back in 2005, 
it really took off in Ft. Worth, but now, you are going to 
start seeing more of that take place in Dallas County as well, 
possibly.
    Mr. DeHoratiis. Well, one of the things that we are doing 
at the Department of Energy is promoting research in dealing 
with air emissions, especially in areas where there may be 
associated gas that is being flared, and so we are definitely 
looking at technology to control and mitigate those emissions. 
Whether it is dealing with improved flaring operations or 
alternatives to flaring, beneficial use of the natural gas that 
may be associated gas associated with oil production from shale 
oil formations, and also emission capture technology.
    So I think that is the technology work at the Department of 
Energy we are doing that is going to focus more on urban areas.
    Mr. Veasey. Okay. Dr. Teichman, do you have anything on 
urban drilling specifically?
    Dr. Teichman. Specifically I am not aware that any of the 
case studies, either retrospective or prospective, are 
intentionally in an urban area, but I could be wrong and I 
would like to double check that and offer the answer for the 
record.
    Mr. Veasey. Okay. I wanted to talk with you about drought. 
As you know, specifically in Texas right now we are 
experiencing droughts. We have had situations where, you know, 
people have--they are not taking as many cattle as they were 
before to feed lots and things like that, so I mean we are 
experiencing that problem. And I know that first water reserves 
in Texas has really been an issue lately, and I know the 
fracking uses, only about one percent of the fresh water 
reserves in our state right now, but it was estimated to use 
about nine percent of the fresh water annually in one of the 
cities in the Barnett shale area. The water needs for natural 
gas will obviously continue to grow, but as you probably are 
also familiar, our area in the state, the Dallas/Ft. Worth 
area, is one of the fastest growing areas in the entire region, 
so we obviously are going to continue to need to look for water 
for an increasing population in the metroplex.
    Will any of the research that you plan include information 
for water recycling?
    Dr. Teichman. I believe that question also was raised in a 
slightly different form, and the answer is yes, to the extent 
that we can recycle wastewater so that we don't need to 
continuously use new water sources for the hydraulic 
fracturing, we will look into that practice and hopefully it 
will prove to be very fruitful for all parties. It will save 
water use, and it will probably save expense, in fact, for the 
industries that are developing the resource.
    Mr. Veasey. And let me just say this also, the earthquake 
issue has been something that has been covered quite 
extensively in our local newspaper. Obviously when, you know, 
there were never any earthquakes and as someone that is a 
lifelong resident of the metroplex, I can tell you that we have 
never had any earthquakes, and then all of a sudden, we have a 
lot of earthquakes. They have been very small, you know, 
earthquakes. I think the last one that we had recently was 
about 2--it was measured at 2.6 or so, but you know--but we 
have the earthquakes.
    One scientist from the city of Cleburne, which I know that 
Ralph Hall knows about the city of Cleburne, that they hired 
him. He came in and said to one of the newspapers that yes, you 
know, there is earthquakes--there may be earthquakes associated 
with drilling, and then told the other newspaper there may be 
earthquakes associated with drilling but it wouldn't hesitate 
me to sell my minerals and let them drill on my land. So in 
regards to the earthquakes, how serious of an issue do you 
think it is or not, and particularly in specificity to the size 
of the earthquakes that we have been, you know, seeing, these 
2.6 or lower, maybe a little bit higher. Can you give me some--
your thoughts on that particular issue?
    Chairman Lummis. And quickly, because the time is expired.
    Mr. Veasey. Thank you, Madam Chair.
    Chairman Lummis. You bet.
    Dr. Russ. Yes, very quickly. A very good question. One of 
our goals is to understand through research just how large of 
an earthquake might be induced by underground injection of 
fluids, and so this understanding of the injection rates and 
volumes and how that might affect the types of earthquakes, the 
distribution of earthquakes is part of what we are working on. 
There has been some earthquakes in the Dallas/Ft. Worth area. 
You asked about urban areas a moment ago, and there is an 
earthquake that occurred in Youngstown, Ohio, that we are 
studying as well, so that is an urban area.
    So we don't have the answers to these questions yet. It is 
a complex topic, but it is one of the issues we are looking at.
    Chairman Lummis. I thank the witness, and I recognize the 
gentleman from Texas, Mr. Weber.
    Mr. Weber. Well thank you, Madam Chairman. I am a little 
late in getting here, so I really don't have a lot of 
questions. I think my colleague over here, also from Texas, was 
able to get some questions and extract a pound of flesh, so I 
think I will leave it at that. I yield back.
    Chairman Lummis. Thank you, Mr. Weber. We have about ten 
minutes until votes, and we have completed one round of 
testimony. If others are interested, I would suggest that we 
give each of us the opportunity to ask one more question. Just 
one question. Is that agreeable?
    Mr. Swalwell. Sure.
    Chairman Lummis. I thank the Ranking Member, and the 
Chairman yields to herself to ask a question.
    I note in what you have told me that you are spending money 
to implement this plan on looking at fracking, and yet, we 
haven't seen the plan. And I look back at what my opening 
remarks, the agencies committed to release a draft of the 
research plan in October, final plan in January. We haven't 
even received a draft version. You are spending money to 
implement the plan. I want the plan. Will you please commit to 
give us the plan?
    Dr. Teichman. Chairman Lummis, with all due respect, the 
plan is under development. As soon as I am able to have it 
released, I will get it to you.
    Chairman Lummis. Well, you know, the logical follow-up 
question is why are you spending money to implement a plan that 
you haven't released to the public or given for public comment? 
That is my question, and now I yield to----
    Dr. Teichman. May I respond? I apologize, but in Fiscal 
Year 2013, which is when we are indeed spending dollars for our 
drinking water study, that is consistent with the money we 
have. It is--the plan will be for Fiscal Year 2014, where no 
dollars have been spent yet.
    Chairman Lummis. I thank the gentleman, and yield to Mr. 
Swalwell.
    Mr. Swalwell. Thank you, Madam Chair.
    I wanted to ask Mr. DeHoratiis, my understanding is that 
investments that your office has made in hydraulic fracturing 
as far as research and development decades ago can be directly 
linked to the oil and gas boom that we are seeing today. And if 
that is the case, would you say that this provides a clear 
example of how federally funded applied energy research can 
have a major impact on establishing or accelerating the 
development of new energy technologies that are critically 
important to our Nation?
    Mr. DeHoratiis. Thank you very much. Yes, you know, DOE was 
working in shale gas research back as early as 1978, before it 
was even a thought in most people's minds that we could produce 
oil from shale formations, oil and gas. So DOE is very proud of 
that. Our efforts today are taking what we think is the next 
step forward, looking at mitigation technologies, how can we do 
it and improve? Just as technology has advanced on the 
production side, we want to make sure that technology is 
advancing on the performance side. And so we are looking at 
better ways to reduce the amount of water that we need, how can 
we reuse water, how can we find alternatives to water? What 
about the air emissions? Can we do things in that area? Can we 
better understand the impacts of wastewater injection that may 
induce seismicity? So we are doing research in all these areas, 
and we feel that this is a very important research topic for 
us.
    Mr. Swalwell. Great, thank you, and I yield back the 
balance of my time.
    Chairman Lummis. Thank you. We have been joined by a Member 
of the Committee who hasn't had a chance to ask questions, so I 
will yield five minutes to the gentleman from Florida, Mr. 
Grayson.
    Mr. Grayson. Thank you very much. I have some questions for 
Dr. Ikeda, and this has to do with the ATSDR's activities with 
regard to the island of Vieques in Puerto Rico. Are you 
familiar with the ATSDR's activities regarding Vieques?
    Dr. Ikeda. Yes.
    Mr. Grayson. All right. Is it fair to say that it is within 
scientific knowledge that the military has released toxins in 
various places, including Vieques and elsewhere, where the 
military has done bombing? Is it fair to say that we know to a 
scientific certainty that the military has released toxins into 
the environment in airs that it has done bombing?
    Dr. Ikeda. We are focused on the human health aspects, 
environmental exposures, and our work in Vieques has not 
documented human health exposures or human health impacts 
related to military activities in Vieques.
    Mr. Grayson. Okay, Doctor, my question was is it fair to 
say with a scientific certainty that bombing has led to 
environmental damage through the release of toxins? That is my 
question.
    Dr. Ikeda. I can't speak to the environmental damage. Our 
focus is on the human health aspects of exposures in the 
environment.
    Mr. Grayson. All right. Is it fair to say, Doctor, to a 
scientific certainty that the release of mercury into the 
environment can cause human health damage?
    Dr. Ikeda. Mercury has been associated with negative health 
impacts, yes.
    Mr. Grayson. Now the same thing is true of Agent Orange, 
right?
    Dr. Ikeda. Yes, correct.
    Mr. Grayson. And the same thing is true of depleted 
uranium, right?
    Dr. Ikeda. Yes.
    Mr. Grayson. And the same thing is true of napalm, right?
    Dr. Ikeda. Yes.
    Mr. Grayson. All right. Now can you tell me how much napalm 
was released in Vieques during the half century of bombing by 
the Navy?
    Dr. Ikeda. I am sorry, I don't have that information.
    Mr. Grayson. Do you have any idea?
    Dr. Ikeda. I don't know. No, we would have to get back to 
you.
    Mr. Grayson. Do you--can you tell me how much depleted 
uranium was released on Vieques during a half century of 
bombing by the Navy?
    Dr. Ikeda. Again, I am sorry. I don't have that 
information.
    Mr. Grayson. Does anybody within your agency have that 
information?
    Dr. Ikeda. I certainly will check and get back.
    Mr. Grayson. Can you tell me how much Agent Orange was used 
and released into the environment at Vieques over the course of 
half a century?
    Dr. Ikeda. Again, I am sorry.
    Mr. Grayson. Can you identify for me with specificity any 
of the environmental toxins that do cause damage to human 
health that you know or don't know was released into the 
environment at Vieques at any time in the past 60 years?
    Dr. Ikeda. I couldn't do that with any specificity, so we 
would have to get that information back to you.
    Mr. Grayson. All right. It is fair to say that you really 
can't make a firm judgment or even a wild guess as to whether 
there has been damage to health--human health in Vieques 
without knowing what toxins released, when, and how much?
    Dr. Ikeda. I am sorry, I don't know the specifics about the 
report, but the final results from the report have shown that 
there were not human health impacts related to the military 
activities in Vieques.
    Mr. Grayson. Doctor, if you don't know whether or how much 
Agent Orange was released, how could you possibly reach that 
conclusion?
    Dr. Ikeda. No, I am saying that--I am sorry, that I 
personally don't have the information, but the information in 
the report is final.
    Mr. Grayson. Well Doctor, I will represent to you that 
nobody in that report--involved in that report, which to some 
degree, preceded your time at the agency, nobody working on 
that report at ATSDR, as far as I know, knew the answer to that 
question. Nobody knows at ATSDR how much Agent Orange was 
released. Nobody knows how much napalm was released. It wasn't 
in the report.
    Now given that fact, given the fact that you were not told 
exactly what toxins were released by the military during the 
bombing, is it fair to say that we don't really know with a 
firm answer whether the bombing caused any health damages on 
the island or not?
    Dr. Ikeda. Again, I would say that based on the information 
that we do have, we did not find evidence of human health 
impacts--negative human health impacts related to the military 
bombing.
    Mr. Grayson. Doctor, if you know nothing, then really, you 
can't say anything, right?
    Dr. Ikeda. I will stand by my answer. Again, I am sorry, I 
don't have the personal information, but according to our 
report and the work that we have done and the data that we do 
have----
    Mr. Grayson. I will ask you to assume hypothetically, since 
you don't have that information here with you today, if the 
Navy has not released the information to you or the people of 
Vieques or even to us in Congress, the information about how 
much of these toxins were released during their bombing, is it 
fair to say then that you cannot reach any firm, final 
scientific conclusions without the information that you need in 
order to be able to reach that conclusion?
    Dr. Ikeda. Again, I would say that based on the information 
that we have, we believe that our conclusions are valid.
    Mr. Grayson. Based on that information that you have which 
you know is----
    Chairman Lummis. The gentleman's time is expired.
    Mr. Grayson. Thank you very much, Madam Chair.
    Chairman Lummis. I will now yield to the gentleman from 
Utah, Mr. Stewart.
    Mr. Stewart. Thank you, Madam Chairman.
    Mr. Grayson, your comment that if you know nothing, you 
can't say anything, very clearly, sir, you have never raised 
teenagers, because I have several of them who----
    Mr. Grayson. Point well taken.
    Mr. Stewart. I only have a few minutes. I would like to 
follow up just in a big picture kind of general sort of way, 
and again, it is something that I think we would agree with, 
but I would like to caution us, if we could, and that is that 
in regarding to fracking and the research and the science and 
the development and the technology around that, and the EPA has 
repeatedly insisted, and we appreciate this, that you are 
trying to be transparent and research-driven as you approach 
this, and thank you for doing that. It is important that you do 
do that, but there are examples where that appears to not have 
taken place. And I won't elaborate them here. We have discussed 
some of them already in the Committee, but there are times when 
it appeared that the agency is more interested in rushed 
judgments and placing--and this is particularly troubling--
placing information in the hands of the media rather than 
undertaking a sound scientific approach, and just the few 
seconds that I have, I would ask us--ask you to agree that that 
is detrimental to what we are all trying to do here, and that 
it invites suspicion as to the agency's motivation. And if I 
could have your commitment that the agency would do everything 
in its power to work within the normal protocols and to not put 
information out there--frankly, I am afraid that this Committee 
has done--that this hearing has done today in regard to--as I 
said, in regards to earthquakes--to not put a perception or 
partial information out there that the media then, of course, 
runs with and does what the media does. And I would appreciate 
your commitment that you will do everything within your power 
to try to avoid that.
    Dr. Teichman. I believe that is probably most directed to 
me----
    Mr. Stewart. Yes, sir.
    Dr. Teichman. --and I would say that EPA has been and will 
continue to be committed to performing all of its research in 
strict conformance with the highest standards of scientific 
quality as promoted by our own EPA scientific integrity policy 
and related policies, and you are hearing that from the person 
who helped write the scientific integrity policy for EPA.
    Mr. Stewart. Okay, and again, we appreciate that. And if we 
could have this science-based once again and go through the 
normal protocols rather than, in some cases where it has been 
partial information, or in some cases absolutely inaccurate 
information has been provided to the press and allowed them to, 
you know, create great concerns among the local populations. It 
just didn't bear out, so thank you for your commitment to doing 
that.
    Madam Chair, I yield back.
    Chairman Lummis. I thank the gentleman from Utah, and the 
Chair now recognizes Ms. Bonamici.
    Ms. Bonamici. Thank you, Madam Chair.
    I wanted to ask about the cooperation that you are getting 
from the industry, and get back to the topic of earthquakes, 
because that is something that we have heard from a couple of 
Members here, and I know that there is a Williams Ellsworth who 
is with the USGS and is or was a geophysicist. I don't know if 
he is still with the USGS, but has written more than 100 papers 
on earthquakes and reviewed a study, Mr. Ellsworth study of 
geophysics at Stanford, earned his doctorate from MIT, former 
president of the Seismological Society of America. When he was 
asked if there was any doubt among his colleagues about what 
produced quakes in Arkansas, Colorado, Ohio, Oklahoma, and 
Texas, he said injection of wastewater into class 2 wells has 
induced earthquakes, including those you site. In my opinion, 
it is pretty clear in all of these cases, Youngstown, Arkansas, 
DFW, Trinidad, and Oklahoma, that injection wells were the 
cause. So obviously, there are people who are experts who are 
making this connection.
    Have you been able to get information from the industry 
that would help you form opinions about that, for example, the 
amount of water, what they are using, and how they are 
injecting the water? Thank you.
    Dr. Russ. Yes, I will take a stab at answering that. This 
is Dr. Russ. And yes, Dr. Ellsworth is a geophysicist with our 
offices in Menlo Park, California. He is still very much an 
active member of that unit, and I think he has done a good job 
at summarizing and looking at the evidence to support the 
relationship between the activities subsurface injection and 
earthquakes that you mentioned.
    Ms. Bonamici. Thank you. And are you working on this report 
and this plan, this research, are you able to get the 
information you need from the industry about what they are 
injecting, how much they are injecting, and what their process 
is?
    Dr. Russ. We have been successful at getting some of the 
information we think is necessary. We would like to have more 
information, rates of pumpage, volumes of water injected. In 
some cases, companies haven't recorded that information so we 
are trying to work with the companies and with the 
Environmental Protection Agency to see how we can improve our 
ability to get some of that important information.
    Ms. Bonamici. Dr. Teichman, do you want to weigh in on 
this, please?
    Dr. Teichman. I would only add today's remarks, and that is 
part of our drinking water study. We have two prospective 
studies that we are hoping to have, in which case we will be 
there measuring baseline data of water quality before fracking 
occurs at a site, while it is occurring, and even after wells 
are completed and, in fact, the production is stopped. And we 
hope by that time to be there and getting the very type of data 
that you are talking about and measuring the potential 
environmental impact, if any, as we do that.
    Ms. Bonamici. Thank you, and I hope that the industry is 
cooperative because the more facts that you have, the more data 
you have, the more you will be able to have accurate reports 
that you can get back to us.
    Thank you very much. I yield back. Thank you, Madam Chair.
    Chairman Lummis. I thank the gentlelady from Oregon, and 
the gentleman from California as well. Our Ranking Members, 
their attendance and the attendance of the Minority as well as 
the Majority Members is deeply appreciated. I also want to 
thank the witnesses for their valuable testimony, and the 
Members for their questions.
    The Members of the Committee may have additional questions 
for you, and we will ask you to respond to those in writing. 
The record will remain open for two weeks for additional 
comments and written questions from Members. Again, with my 
deepest thanks to the witnesses today, you are now excused, and 
this hearing is adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Kevin Teichman

[GRAPHIC] [TIFF OMITTED] 

Responses by Mr. Guido DeHoratiis

[GRAPHIC] [TIFF OMITTED] 

Responses by Dr. David Russ

[GRAPHIC] [TIFF OMITTED] 

Responses by Dr. Robin Ikeda

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
